                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS
                                                                                                   1


                                          CLOSEOUT MEMORANDUM

11   TO: AIGI         1   File Number: I93070027                                  1   Date: 6 June 2002


Il   Subject: Closeout Memo                                                                   Page 1 of 1


           There was no closeout written at the time this case was closed. The following information was        I



           extracted from the file in conformance with standard closeout documents.

           Our office was informed that the subject' was alleged in an email to have diverted grant funds. We
           determined that no NSF funds were involved.




                           Prepared by:                   Cleared by:

                          Agent:          Attorney:     Supervisor:     AIGI
        Name:
                                                                                                                    I




      Signature &
         date:

           OIG-02-2
